Case No.

9. \ °

IN THE
SUPREME COURT OF THE UNITED STATES

filed
may 2 8 2021

In re Jennifer L. Kammerer,
Petitioner.

After denial of a Petition for Writ of Mandate
by the
Supreme Court of California, En Banc.

PETITION FOR A WRIT OF CERTIORARI
WITH APPENDICES

JENNIFER L. KAMMERER,
Petitioner, Pro se
2907 Shelter Island Dr, #105-523
San Diego, California 92106
(619) 990-7019
JLKHome2@gmail.com

QUESTIONS PRESENTED
1. DOES IT VIOLATE THE AMERICANS WITH DISABILITIES ACT, TO
PUNISH AN INDIVIDUAL FOR BEING MENTALLY ILL, BY
SUMMARILY REVOKING THEIR PROFESSIONAL LICENSE AND
DENY THEM THE ABILITY TO PARTICIPATE IN A PROGRAM
SPECIFICALLY DESIGNED FOR PROFESSIONALS WHO ARE FACING
DICIPLINE DUE TO A MENTAL ILLNESS; WHICH, WOULD HAVE
ALLOWED THEM TO MAINTAIN THEIR LICENSE WHILE THEY
REHABILITATE, WHEN THE LICENSING AGENCY KNEW THE
MENTAL ILLNESS CUASED THE ACTIONS WARRANTING
DISCIPLINE?
2. IS DISPARATE PUNISHMENT FOR ETHICAL VIOLATIONS, WHERE
GENDER AND MENTALL ILLNESS ARE INVOLVED, A FORM OF
DISCRIMINATION THAT VIOLATES ONE’S RIGHT TO EQUAL
PROTECTION UNDER THE AMERICANS WITH DISABILITIES ACT?
3. WOULD REQUIRING A PROFESSIONAL TO RE TAKE A LICENSING
EXAM TO HAVE THEIR LICENSE REINSTATED, WHEN THEIR
LICENSE WAS IMPROPERLY TAKEN DUE TO ACTIONS CAUSED BY
A DISABILITY, WHERE THE PROFESSIONAL WAS FOUND TO HAVE
COMPETENTLY PERFORMED THEIR PROFESSIONAL TASKS AT ALL
TIMES AND HAS SINCE REHABILITATED FROM THE MENTAL
ILLNESS, VIOLATE THE AMERICANS WITH DISABILITIES ACT?

V

f

}

ii

PARTIES TO THE PROCEEDING
Petitioner:

JENNIFER L. KAMMERER, an individual licensed to
practice law in 1999; state bar number 204888.

Respondents:

California State Bar, Office of Chief Trial Counsel.

a

4

*

iii
*

CERTIFICATE OF INTERESTED ENTITIES OR PERSONS
Petitioner hereby certifies she is not aware of any entity or person that rules
8.208 and 8.488 of the California Rules of Court require to be listed in this
Certificate.

iv

A

TABLE OF CONTENTS
Page:
QUESTIONS PRESENTED

n

PARTIES TO THE PROCEEDING

ru

CERTIFICATE OF INTERESTED PARTIES
TABLE OF AUTHORITIES

IV

vrn-x

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
INTRODUCTION - REASONS FOR GRANTING THIS PETITION
STATEMENT OF FACTS

1-3
3

5-15

STATEMENT OF THE CASE

15-19

ARGUMENT
I.

DOES IT VIOLATE THE AMERICANS WITH DISABILITIES ACT, TO .
PUNISH AN INDIVIDUAL FOR BEING MENTALLY ILL, BY
SUMMARILY REVOKING THEIR PROFESSIONAL LICENSE AND
DENY THEM THE ABILITY TO PARTICIPATE IN A PROGRAM
SPECIFICALLY DESIGNED FOR PROFESSIONALS WHO ARE
FACING DICIPLINE DUE TO A MENTAL ILLNESS; WHICH,
WOULD HAVE ALLOWED THEM TO MAINTAIN THEIR LICENSE
WHILE THEY REHABILITATE; WHEN THE LICENSING AGENCY
KNEW THE MENTAL ILLNESS CUASED THE ACTIONS
WARRANTING DISCIPLINE?
19
A. The California State Bar Found MS. KAMMERER Had a Qualifying
Disability; Yet. Denied Her Participation In ADP. Despite Having The
Disability As The Direct Result Of Domestic Violence And The
System's Failure To Protect Her And Her Children. From The Abuser.
20-21

v,

B. The American Bar Association. Persuasive Authority For California.
T.ists Four Factors To Determine If An Attorney's Mental Illness Should
Be Considered In Mitigation: None Of Which. Were Evaluated In MS.
KAMMERER’S Case: Where. The Failure To Do So. Violated The ADA.
21
C. The Causal Factor Of MS. KAMMERER’S Mental Illness. Was No
Longer In Existence After Abuser Hanged Himself; Wherein. The
Mental Illness That Caused The Actions Warranting Discipline. Could
Now Be Rehabilitated Through APP And MS. KAMMERER Could
Return To The Practice Of Law Without Anv Threat To The Public.
22
D. MS. KAMMERER’s Therapist Declared The Actions Resulting In
Discipline. Were The Direct Result Of MS. KAMMERER’S Mental
Illness; Which. Was The Direct and Proximate Result Of Prosecutors
Allowing Her Abuser to Traumatize Her And Her Children. For 7Years: The State Bar Agreed. Qualifying Her For The “Monitored” LAP.
24

n.

IS DISPARATE PUNISHMENT FOR ETHICAL VIOLATIONS,
WHERE GENDER AND MENTALL ILLNESS ARE INVOLVED, A
FORM OF DISCRIMINATION THAT VIOLATES ONE’S RIGHT TO
EQUAL PROTECTION UNDER THE AMERICANS WITH
DISABILITIES ACT?
26
A. The Summary Disbarment Of Female Attorneys. With A Diagnosed
Mental Illness. Directly Resulting From Years of Unrelenting Domestic
Violence and The Failure Of Our System To Stop Their Abusers. Is
fievnal Discrimination, Disparatelv Impacting Women Professionals.
Through Inequality In Discipline.
26
(i)

Disparate Treatment and Disparate Impact

27

(ii)

Elements Of Disparate Impact........................

27

B. Statistics Show Disparate Treatment Of Female Attorneys. Compared
To Their Male Counterparts. When It Comes To Discipline: Obviates

vi

The Need For A More Critical Evaluation Of Disbarment. Where
Domestic Violence Is Involved.
29
III.

WOULD REQUIRING A PROFESSIONAL TO RE-TAKE A
LICENSING EXAM TO HAVE THEIR LICENSE REINSTATED,
WHEN THEIR LICENSE WAS IMPROPERLY TAKEN DUE TO
ACTIONS CAUSED BY A DISABILITY, WHERE THE
PROFESSIONAL WAS FOUND TO HAVE COMPETENTLY
PERFORMED THEIR PROFESSIONAL TASKS AT ALL TIMES AND
HAS SINCE REHABILITATED FROM THE MENTAL ILLNESS,
VIOLATE THE AMERICANS WITH DISABILITIES ACT? .
32

CONCLUSION

33

VERIFICATION

34

CERTIFICATE OF WORD COUNT

35

APPENDICES

Accompanying, 4 VOLUMES

vii

TABLE OF AUTHORITIES
Page:

Cases:
In the Matter ofBouyer (Review Dept. 1991) 1 Cal. State Bar Ct. Rptr. 404,

16

Connor v. State Bar (1990) 50 Cal. 3d 1047

16

In re Conduct ofCoyner, 149 P.3d 1118, 1123 (Or. 2006)

20

Florida Bar v. Clement, 662 So. 2d 690, 700 (Fla. 1995)
Griggs v. Duke Power Co., 401 U.S. 424 (1971)

20, 23, 25
26

In re Hasenbarik, 151 P.3d 1, 6 (Kan. 2007)

20, 24

Oklahoma BarAss’n v. Busch, 919 P.2d 1114, 1118 (Okla. 1996)

20, 25

Olmstead v. L.C., 527 U.S. 581 (1999)

32

Robinson v. California, 370 U.S. 660 (1962)

26

In re Disciplinary Action Against Weyhrich,
339 N.W.2d 274, 279 (Minn. 1983)................

24

In re Disciplinary Proceedings Against Jacobson,
690 N.W.2d 264, 275 (Wis. 2004).............................

24

In re Stoller, 902 So. 2d 981, 984 (La. 2005)

20

Tyler vs. City of Manhattan, 118 F3d 1400, [10th Cir. 1997)

27

Weinberger v. Wiesenfeld, 420 U.S. 636 (1975)

26

Page:

Statutes:

1

28 U.S.C. § 1651(a)

22

29 U.S.C. § 794

2

42 U.S.C. § 2000e-2

VIII

42 U.S.C. § 2000e-2(a)

2

42 U.S.C. § 12102[2]

20

42 U.S.C. § 12102[b][l]

23

42 U.S.C. § 12131(1)(A), (B)

2

42 U.S.C. § 12131 [2]

3, 20

42 U.S.C. § 12132

2, 20

28 C.F.R.§ 35.130(b)(7)

32

29 C.F.R. § 1630.5

1

Secondary Sources

Page:

Bruce D. Perry, M.D., Ph.D. and Oprah Winfrey,
What Happened To You? Conversations on Trauma.
Resilience, and Healing. Part 3, Chapter 2, 23:27-23:55, audiobook.
Standards For Imposing Lawyer Sanctions § 9.32.(1992)
Disabling Interpretations: The Americans With Disabilities Act
In Federal Court, by Suzan Gluck Mezey, (January; 2005).......

21
16,24
27

National Public Radio, [“NPR”] KPBS, Women Held To Higher
Ethical Standard Than Men, Study Shows, June 2, 20164:28
PM ET, Heard on All Things Considered, by Shankar Vedantam

29-30

Kennedy,. J., McDonnell, M., & Stephens, N. (2016).
Does Gender Raise the Ethical Bar? Exploring the Punishment
of Ethical Violations at Work. Academy of Management Proceedings,
http://dx.doi.org/10.5465/AMBPP.2016.11664abstract..........................

30-32

ix

Page:

Rules
Rules of the Supreme Court of The United States, Rule 29.2

x

1

OPINION BELOW
The opinion of the Supreme Court of California, En Banc, was issued on
December 30, 2020, denying MS. KAMMERER’S Petition for Writ of Mandate, in
case S264858. The original Petition for Extraordinary Relief in this matter, was
received by this Court, May 28, 2021.

♦

STATEMENT OF JURISDICTION
The jurisdiction of this Honorable Court is invoked pursuant to 28 U.S.C. §
1651(a). This Petition for Certiorari is timely, as it was originally filed, (although,
relief was unspecified until September, 2021), on May 19, 20211.
♦

CONSTITUTIONAL AND STATUTORY PROVISIONS
The Unequal Treatment or Uneven Consequence provisions of Title I of the
Americans With Disabilities Act, Disparate Impact, 29 C.F.R. § 1630.5,
the ADA also prohibits discrimination based on disparate impact. Disparate

i

On May 19, 2021, MS. KAMMERER mailed her Petition for an “Extraordinary Writ”,
(within 150 days, per Guidance Concerning Clerk's Office Operations, April 17, 2020); On May 28,
2021, this Court received MS. KAMMERER’S Petition and requested corrections. MS. KAMMERER
resubmitted her Petition. On August 5, 2021, her Petition was returned with a request to specify the
“extraordinary" relief sought. The Petition was resubmitted on September 22, 2021, clarifying the
relief sought. On September 30, 2021, this Court specified the petition for mandamus and certiorari,
must be submitted as two separate filings. This Petition follows.

1

impact discrimination occurs when an employer uses employment tests, standards,
or other selection criteria that intentionally or unintentionally exclude qualified
individuals with a disability in a disproportionate .manner.
This case also involves anti-discrimination provisions of Title VII of the Civil
Rights Act. of 1964,.as amended, 42 U.S.C. § 2000e-2. 42 U.S.C. § 2000e-2(a): It shall
be an unlawful employment practice for an employer - (1) to fail, refuse to hire or
disnharge any individual, or otherwise discriminate against any individual with
respect to his compensation, terms, conditions, or privileges of employment, because
of race, color, religion, sex, or national origin, or (2) to limit, segregate, or classify
his employees or applicants for employment in any way which would tend to deprive
any individual of employment opportunities or otherwise adversely affect his status
as an employee, because of such individual’s race, color, religion, sex, or national
origin.

Last, this case involves the anti-discrimination provision in Title II, public
services portion of the Americans With Disabilities Act of 1990, 104 Stat. 337, 42
U.S.C. §12132, “no qualified individual with a disability shall, by reason of such
disability, be excluded from participation in or be denied the benefits of the services,
programs, or activities of a public entity, or be subjected to discrimination by any
such entity." Section 12131(1)(A), (B), “...public entity includes ‘any state or local
government,’ and ‘any department, agency [or] special purpose district.’” A
“qualified individual with a disability” is “...an individual with a disability who, •
with or without reasonable modifications to rules, policies, or practices... meets the

2

essential eligibility requirements for the receipt of services or the participation in
programs or activities provided by a public entity.” (§12131[2].)
♦

MS. KAMMERER’S PETITION FOR A WRIT OF CERTIORARI
MUST BE GRANTED
JENNIFER L. KAMMERER, petitioner, (hereinafter, “MS. KAMMERER”),
seeks a writ of certiorari, to review said order, wherein, the California Supreme
Court adopted the State Bar of California’s recommendation of summary
disbarment of MS. KAMMERER, despite knowing her actions, resulting in
discipline, were caused by a mental illness, caused by criminal actions of another;
and denying her the ability to participate in a program specifically designed by the
State Bar of California2, to prevent punishing attorneys who suffer from mental
illness or addiction, by providing an opportunity for rehabilitation, while preserving
their professional license.
Specifically, the California State Bar created the Lawyer’s Assistance
Program3. In order to qualify for the Program, the State Bar created a specialized
Committee, including mental health specialists, to evaluate whether or not: 1. a
“nexus” exists between the attorney’s actions resulting in discipline and the mental
illness or addiction; and 2. the attorney presents with rehabilitative qualities.

2 With the increased understanding of mental illness and addiction, over the years, many states now have similar
programs for professionals suffering from said diagnosis’.
3 The Lawyer’s Assistance Program is also referred to as, “Program” or “LAP”, interchangeably.

3

(App. “D”.) The Committee interviews the attorney, reviews the facts surrounding
the disciplinary charges and the attorney’s record of discipline, if any.
If, after the Committee conducts its investigation, it determines a “nexus”
exists and the attorney has rehabilitative qualities, the attorney is invited to
participate in the “monitored” Lawyer’s Assistance Program; wherein, they will
have to submit monthly and quarterly reports, prepared by designated mental
health experts, evidencing they are adhering to an agreed upon rehabilitation plan.
Each rehabilitation plan is tailored to the individual’s situation; however, all plans
include mandatory attendance at weekly meetings, monitored by the State Bar.
If, on the other hand, the Committee determines there is insufficient evidence
of a “nexus” between the actions resulting in discipline and the diagnosed mental
illness or addiction, the attorney may attend the Program without requirements.
Accordingly, only the attorneys who are in the “monitored” Program, have the
opportunity for successful completion, (“graduation”), of the Program. An attorney
“graduates” from the Program, only after the State Bar finds they have achieved the
agreed-upon rehabilitation goals4.
In the case at bar, certiorari is warranted, because MS. HAMMERER, (here,
representing all professionals who suffer from a mental illness or addiction and are
unconstitutionally denied the ability to maintain their professional license, when
faced with discipline-related issues, while they rehabilitate), was interviewed by the
State Bar’s Lawyer’s Assistance Committee, twice, (2012 & 2014); and twice,

4 MS. KAMMERER “graduated” from the State Bar’s Lawyer’s Assistance Program on April 5,2021. (Add. “P” )

4

qualified for the program; yet, despite qualifying for the “monitored” Program, MS.
KAMMERER was summarily disbarred. This action by the California State Bar
and adopted by the California Supreme Court, results in the “punishment” of an
individual for having a mental illness and violates Title I and II, of the American’s
With Disabilities Act.
In addition, since the majority of domestic violence victims are women and
the mental illness in the case at bar, resulted directly from ongoing domestic
violence, the decision to summarily disbar MS. KAMMERER, also violates the antidiscrimination provisions of Title VII of the Civil Rights Act of 1964. Accordingly,
it is imperative this Writ of Certiorari, be granted.
STATEMENT OF FACTS5
On December 8, 1999, MS. KAMMERER was admitted to practice law in
California. For fourteen, (14), years, MS. KAMMERER practiced law; eventually,
starting her own estate planning practice in 2002. MS. KAMMERER’s work
product as an attorney, was never at issue, during her 14 years of practice. (App.
“K\) During her legal career, MS. KAMMERER belonged to Rotary, the San Diego
County Bar Association and the Lawyer’s Club of San Diego. She donated time and
money to different organizations in her community, including: the Junior Sailing
Program, Leukemia and Lymphoma Society, serving meals to the homeless at St.
Vincent de Paul, the San Diego Humane Society and the Monarch School for
homeless youth.

5 Facts not found on the California State Bar website, can be found in the accompanying 4 Volumes of Appendices,
(referred to as, “App.”). with page numbers where needed for clarification.

5

Prosecutors Allow MS. KAMMERER And Her Children. To Be Victimized For
Seven. (7). Consecutive Years: Refusing To File Charges Against Their Abuser.
In 2007, after her husband6 was unable to control his abusive behavior in the
presence of their two young children, (App. “U”, pp. 2-8, 14, 23-26) and often refused
to take medications necessary for his severe depression and bi-polar disorder, (Add.
“U”, p. 11, 34-38), MS. KAMMERER filed for divorce7. From 2007 until 2014, when
MS. KAMMERER’S Abuser ultimately hanged himself, (App. “O”), she spent the
majority of her time and her children’s time, obtaining restraining orders, (App. “R”
- 13 Restraining Orders8); calling police in attempts to enforce restraining orders,
(App. “Q” - 20 Police Reports); meeting with Family Court Services and attending
restraining order hearings, documenting Abuser’s dangerousness and inability to
control his anger, (App. “U”, pp.1-5, 14, 23-26, 31-38); and, after seven, (7), years of
police refusing to arrest Abuser9 and prosecutors refusing to bring charges against
Abuser, (App. “J” - 7 letters from prosecutors10, acknowledging MS. KAMMERER
was a victim of domestic violence), MS. KAMMERER and her children had to
develope survival strategies: hiding in the closets of their home if Abuser showedup, while waiting for police to arrive; driving past their home to see if Abuser’s car

6 Interchangeably called, “the boys’ father”, “ex-husband”, “Kurt” and “Abuser”.
7 Abuser was fired from his job at the Regional Energy Office, in 2003, due to his uncontrollable anger and refusal
to complete an anger management class. (Add. “U”, p. 1 & 34.)
8 Some Restraining Order hearings are only referenced in the Register of Actions - only pages referencing
restraining order issues and actual restraining orders, are in Add. “R”.
9 MS. KAMMERER opined police would not arrest Abuser, because he was a Commander in the Navy. When they
responded to her 911, calls, (sometimes Abuser was still violating her restraining orders when they arrived), they
often seemed impressed with Abuser’s rank and refused to arrest him.
10 Letters from 2007-2011- Letters from 2012 & 2013, are lost. However, MS. KAMMERER had a permanent
restraining order in 2013, (App. “R”, p. 13); yet, prosecutors still failed to bring charges against Abuser.

6

was outside, before entering; and hiding at friend’s homes and women’s shelters,
when Abuser’s threats escalated.
Needless to say, during these times, MS. KAMMERER was prevented from
going to her office, meeting with clients or marketing her law practice, (Ann. “R”,
pp. 14-15); and, certainly was unable to earn a living11. Eventually, MS.
KAMMERER lost her office, her law clerk and any new business. (App. “R”, p. 15,
f 10.) As the years went on, Abuser’s threats became more volatile. In fact, after so
many years of prosecutors and police, seemingly condoning Abuser’s behavior by
refusing to enforce the law, (App. “R”, p. 15, Df 13 &16), Abuser seemed to adopt the
belief his “reign of terror” on MS. KAMMERER, (and incidentally, his own
children), was warranted, “...you deserve what I am giving you.”12 (App. “Z”, p.3.)
Years Of Terror From Abuser. Causes MS. KAMMERER To Develop Clinical
Depression. Post Traumatic Stress Disorder. (“PTSD”) And Dissociation.
Ultimately, MS. KAMMERER was diagnosed with clinical depression (App
“U”, p.13,1|2), and post-traumatic stress disorder, (App. “S”, p.2, f 4), as a result of
the years of trauma, she and her children were forced to endure. (App. “S”, p.l, f 3,
p.2,1(4.) MS. KAMMERER’S resulting mental illnesses were a foreseeable result of
her inability to convince prosecutors to bring charges against her Abuser, (App. “S”,
p.2,1[4 and App. “J”); refusal of police to arrest Abuser after numerous violations of

11 Documentation of the amount of time Abuser’s threats and “reign of terror” took away from MS. KAMMERER’S
ability to earn a living, is evidenced in the forty-five, (45), page Register of Actions and her nine, (9), volume family
court file, in the San Diego Superior Court, (Add. “R”, pp. 2, 8-13); as well as, the Declaration of Jennifer Segura,
MS. KAMMERER’S law cleric at the time. (Add. “R”, pp. 14-15).
12 The email references an incident at the San Diego Yacht Club, where MS. KAMMERER came to pick-up the
children and Abuser began pushing her around in front of hundreds of guests, during a 4th of July event. The Club
decided to ban Abuser from the Club, indefinitely. (Add. “Z”, pp. 1-2.) Abuser wanted MS. KAMMERER to ask
the Club Directors to allow Abuser to start coming to the Club again; she refused.

7

her restraining orders, (App. “Q”); and failure to convince the family court her
Abuser was a danger to their children, forcing MS. KAMMERER to share custody with a mentally unstable and dangerous man. (Apps. “R”; “S”, p.l, ^[3; “U” & “V”.)
Even after she presented the court with the discharge report from Abuser’s
day. (120 hour), hold at the Veteran’s Administration Psychiatric Ward for “suicidal
ideations”13, (App. “V”), and four, (4), Family Court Services Reports, where
supervisors warned the court of Abuser’s inability to control his anger, (App. “U”,
pp. 2-8, 23-26); one Supervisor even advised the court that Abuser*s visitation should
be supervised, ufi]n an abundance of caution”. (App. “U”, pp. 4, 6 & 8), nothing was
done to adequately protect MS; KAMMERER or her children14, for 7 years.
Eventually, after so many years of failed attempts to protect her children and
herself, (App. “R”, p.14,

p.15, f 1J9, 15-16), having lost almost all income from her

law practice, (App. “R”. p.14, ff7 & 8; p.15, HI 10 & 11), MS. KAMMERER mentally
dissociated from reality15, (App. “S”, p.2,114, p.3,1fl), and began taking completely
uncharacteristic and desperate actions, in order to survive16. (App. “S”, p.2, 1)5.)
MS. KAMMERER’S Ability To Focus On Her Law Practice And Earn A Living. Is
Almost Impossible.

13 Abuser was actually hospitalized three, (3), times for attempted suicide. However, MS. KAMMERER was only
able to obtain the discharge report from one hospitalization, because it happened during a custody hearing.
14 When the domestic violence started, the boys were two, (2), and three, (3), years old.
15 The mind’s involuntary survival mechanism, in response to extreme durations of trauma. Black, Donald W.
(2014) (coauthors: Grant, Jon E.). DSM-5 Guidebook: The Essential Companion to the Diagnostic and Statistical
Manual of Mental Disorders. Fifth Edition. American Psychiatric Pub. ISBN 9781,585624652.
16 MS. KAM MERER lost her home and her condominium, during the 7-years of trauma, due to her inability to go to
work or meet with clients, without her Abuser showing-up and creating a scene. Police never arrested him and
prosecutors, acknowledged they knew she was a “victim of crime”; yet, refused to bring charges against Abuser.
$

On July 1, 2011, after years of trauma, MS. HAMMERER'S license to
practice law was suspended, because she was unable to pay her bar dues. Her
Abuser had also appeared in court without her knowledge and obtained a judgment
for child support against her, based on false income information. MS. HAMMERER
was barely able to get out of bed, due to her depression; let alone, earn money from
an almost non-existent law practice. (App. “R”, p.15,110.) She did meet with past
clients who contacted her, to request amendments to estate plans she prepared
years prior, (when her license WAS active), despite being suspended at the time;
hoping to eventually earn enough money to buy food and pay her bar dues.
MS. HAMMERER Sends An Email To Her Contacts. To Review Their Estate Plan.
During this time, MS. HAMMERER, desperate to put food on the table, pay
rent and obviously not thinking straight, sent an email to past estate planning
clients and other attorneys in her contact list17. In the email, she reminded people
of the importance of keeping their estate plans up to date and if they needed to
make changes, to contact an estate planning attorney. Another estate planning
attorney, who once shared office space with MS. HAMMERER, received the email
and forwarded it to the State Bar. (As a result, MS. HAMMERER and the State
Bar, agreed to a 30-day suspension: starting 11/28/2013 and ending 12/28/201318.)
Arrest. 2012.

17 State Bar Case No. 12-0-16591. All discipline-related matters involved financial stru2sles. not malpractice.
18 All facts related to this matter are on the State Bar website.

9

On October 22, 2012, after more than six, (6), years of being forced to endure
Abuser’s reign of terror, while prosecutors stood by and did nothing. (App. “J”), and
while a permanent restraining order was still in place against her Abuser, (App.
“R”, p.13 - entry on 3/13/2012, documents a 1-year restraining order, ending
3/13/2013), MS. KAMMERER was arrested and charged with practicing law with a
suspended license19. The trauma of years of domestic violence had completely
destroyed her reasoning, judgment and interpretation of reality. (App. “S”, p.l, 1)4;
p.2,11(4 & 5.) MS. KAMMERER was also charged with using the identifying
information of a deceased, past client in a failed attempt to get a credit card, in a
completely uncharacteristic and desperate attempt to buy food and gas, at one of
the lowest points of her depression, PTSD and while operating under complete
dissociation; and burglary - when she crossed the threshold of a past client’s home,
upon their invitation, to amend an estate plan she had prepared years prior, when
her license was active20. MS. KAMMERER posted bail the same day.
On December 26, 2012, MS. KAMMERER’s license was active again21, after
she was able to borrow money to pay her past due bar dues, pay for and submit
MCLEs and have the Order for child support dismissed, (all documented on the

19 The arrest record is voluminous, so it is not part of the Appendices. However, MS. KAMMERER will provide
the documents, should the Court request same. The guilty plea is attached as App. “N”, regarding actual charges.
20 The charge of burglary was ONLY possible, because prosecutors charged Practicing Law With a Suspended
License, (“PLWSL” - when MS. KAMMERER was unable to pay her bar dues), as a “felony” rather than a
“misdemeanor’. Since PLWSL is a “wobbler”, it was within the prosecutor’s discretion on how to file the charge.
Filing the charge as a “felony”, created the “felonious intent”, necessary for a “burglary”. If the prosecutor chose to
charge PLWSL as a misdemeanor, a “burglary” would have been impossible.
On July 2,2013, MS. KAMMERER, still struggling financially and psychologically, had her license suspended
again, after the fee waiver she filed with the State Bar was denied and she was unable to pay her bar dues.
On July 8,2013, (six days later), MS. KAMMERER was able to borrow money from a friend, pay her bar dues and
her license was again reinstated.
a

*

10

State Bar website), after proving her Abuser obtained the support order after
presenting false financial documentation.
In 2013, one of MS. KAMMERER’S clients, (Kenneth), was arrested by the
Arizona Attorney General and charged with an alleged “Ponzi” scheme. (Ann. “AA”,
p. 1.) MS. KAMMERER’S defense attorney advised her the prosecutor believed she
had something to do with the Ponzi scheme; (which, took place when MS.
KAMMERER was in grade school, high school and college). MS. KAMMERER
assured her attorney, she did not know her client during the time of the alleged
events. Apparently, prosecutors wanted to look through Kenneth’s file, (which, was
in MS. KAMMERER’S possession), for evidence. Of course, MS. KAMMERER was
not going to give her client file to anyone and there was no legal reason to do so.
On December 10. 2013. while MS. KAMMERER’S agreed upon 30-day
suspension was active, (from the estate planning email), prosecutors conducted a
“stake-out” of the Probate Court22, where another one of MS. KAMMERER’S clients
had a scheduled hearing23. (Apparently, the prosecutor thought MS. KAMMERER
would attend the hearing, despite being suspended and they could arrest her. She
did not.) In fact, MS. KAMMERER already advised her client, prior to the 30-day
suspension that they would need to file a substitution of attorney, if her agreed
upon suspension, fell on the day of the hearing. (Since MS. KAMMERER would not

22 During MS. KAMMERER’S preliminary hearing in the criminal matter, the prosecutor admitted to the stake-out
and that they watched everything take place. No arrest was made.
23 The client was Sue, the Executor of the Estate of Mary Kathryn Plein and the daughter of Kenneth, (who had been
arrested). Maty Kathryn Plein was Sue’s deceased mother and Kenneth’s late wife.

11

know the actual days until the California Supreme Court adopted the State Bar’s
recommendation and made an Order regarding same, MS. KAMMERER and her
client had to “wait and see”.) Failure to file the substitution would have been
malpractice, because her client would have been unable to address the court.
When MS. KAMMERER realized the 30-day suspension fell on the day of the
hearing, she arranged to meet her client at the court, prior to the hearing, and sign
the substitution. MS. KAMMERER filed the substitution on the morning of the
hearing, her client appeared telephonically, (App. “AA”, pp.2-3), and obtained a
continuance of the hearing.
On the morning of January 6. 2014. (one day before Kenneth’s arraignment in
Arizona, set for January 7. 2014. [App. “AA”, p.l]), MS. KAMMERER was walking
her dog, when she was arrested by the same Prosecutor’s Investigator from the first
case. She was charged with practicing law with a suspended license, for filing the
substitution of attorney at the Probate Court, almost a month prior24.
This Investigator knew from the first arrest, (aside from being with the
prosecutor’s office for many years), that if he wanted to obtain, or view, any of MS.
KAMMERER’S client files, he first needed to establish probable cause, obtain a
search warrant and arrange for a Special Master from the State Bar, to be present,
in order to protect any privileged communications. (App. “AA”, p.4.) Specifically,
Penal Code §§ 1524(c)(1), 1524(c)(3) and 1524(e), “commands” the Investigator “...to
accompany the Special Master”, who collects the client files, to review prior to

24 This case was dismissed by the San Diego Superior Court on July 15.2021. after the Judge confirmed with
prosecutors, they FAILED to bring charges against MS. KAMMERER’S Abuser. (Add. “N”, p. 5-8.)

12

handing them over to the prosecutor. In fact, the process can take weeks: the
Special Master reviews the file(s); prepares a report, advising the court of any
privileged information; a hearing is set; and the judge makes a ruling on which
files, if any, can be released to the prosecutor.
Despite knowing the legal process for removing evidence during an arrest,
the Investigator did not have a search warrant and did not have a Special Master
present. (The lack of a Special Master can be corroborated by the California State
Bar.) He simply took Kenneth’s client file, illegally25.
In Order To Get Her Children To Safety. Davs Before Abuser Killed Himself. MS.
KAMMERER Accents A Plea. So She Could Be Released From Custody.
In March of 2014, MS. KAMMERER called her children as she usually did,
while still in pre-trial custody. However, this time, her Abuser answered, instead of
her children. Since the Family Court never agreed with MS. KAMMERER, that
Abuser, (the children’s father), was a “danger” to them, he had sole custody while
MS. KAMMERER was awaiting trial. Abuser began yelling at MS. KAMMERER in
a panicked tone, obviously suffering a severe manic episode, from his diagnosed bi­
polar disorder and schizophrenia. Abuser ended the phone call by yelling into the
phone, “I can’t take this anymore!” and hung up.
MS. KAMMERER knew it was just a matter of time before something awful
happened and that her children were in grave danger. Panicked, she contacted her
Public Defender and begged her to tell the prosecutor, she would plead guilty to

25 This second arrest also came after numerous attempts by the Prosecutor, to have MS. KAMMERER accept a plea;
which, she repeatedly refused. Her bail was set at half a million dollars. ($500.000.00). and, as a result, she was
forced to remain in custody for 6 weeks, continuing to refuse a plea.

13

anything they were offering. The only thing MS. KAMMERER insisted on, in
return, was to be released the day she entered her plea26.
On March 11. 2014. MS. KAMMERER entered a plea of guilty to two counts
of practicing law with a suspended license; identity theft and burglary; she was
released from custody that day. (App. “N”.)
On March 25. 2014. fourteen, (14), days after MS. KAMMERER was released
from custody and got her children, Abuser hanged himself in his apartment. (App.
“O”.) If MS. KAMMERER had not pleaded guilty, her children would have been
with Abuser when he killed himself.
MS. KAMMERER And Her Children Were Homeless And Living In A Shelter.
Not only did MS. KAMMERER fear what the Prosecutor’s Investigator might
(illegally) do to her, if she attempted to withdraw her guilty plea, (as obviously NOT
voluntary), she and her children had nowhere to live. (Fighting “legal battles” was
far from MS. KAMMERER’S mind, at the time.) MS. KAMMERER and her
children had no money, no car, and no home. Luckily, she was able to secure a room
at St. Vincent de Paul’s Joan Krock Center, (“JKC”), for women and children in
downtown San Diego27. (App. “X” - documentation of their residence at St.
Vincent’s JKC.) The JKC provided MS. KAMMERER and her children with trauma
counseling, a place to stay, medical care and food. MS. KAMMERER and her

26 Normally, someone in custody is only released after sentencing; which, occurs weeks after a plea is entered.
27 The location is considered the “skid row” of San Diego, where MS. KAMMERER and her children had to walk to
and from the bus-stop, so the boys could get to school. They were, however, very grateful for a place to live.

14

children resided at the JKC for six, (6), weeks, until they began receiving Survivor’s
Benefits from Social Security and were able to rent an apartment and buy food.

STATEMENT OF THE CASE
The State Bar Files Discipline Charges & Summarily Disbars MS. KAMMERER.
On May 28. 2014. after the time for MS. KAMMERER to appeal the
conviction had expired, the file was transferred to the State Bar. MS.
KAMMERER’S license was placed on suspension and the State Bar prosecutors
filed disciplinary charges, in Case No. 13-C-14553; where, on September 18, 2015,
MS. KAMMERER was ultimately and summarily disbarred.
MS. KAMMERER was never given the opportunity of an in-person hearing,
to present the effects of her mental illness on her reasoning and thus, the “...root
problems that cause an individual attorney’s misconduct...”, (App. “D”, p.l); the
years of criminal actions she and her children were forced to endure, ultimately
causing her mental illness; or, the opportunity to be considered for the State Bar’s
Alternative Discipline Program, (“ADP”), despite her qualification for LAP, (twice);
a prerequisite for ADP. (App. “D”, p.2.)
On December 17. 2014. prior to actual summary disbarment, MS.
KAMMERER filed a Response to the State Bar Court’s Motion for Summary
Disbarment, asserting the significant, mitigation of her diagnosed, mental illnesses
and dissociation, negating the ability to form intent. (App. “F”.)

15

On January 9. 2015. the State Bar Court filed a Motion to Strike MS.
KAMMERER’S Response, “...on the ground that respondent’s pleading presents
only proposed mitigation and is irrelevant to the [summary disbarment] motion.”
(App. “E” and App, “H”, L:4-5.)2*
On February 4. 2015. the Honorable J. Purcell of the State Bar Review
Department found there were compelling reasons in MS. KAMMERER’S case, to
negate summary disbarment and the State Bar’s Motion to Strike was DENIED.
(App. “H”.)

On May 6. 2015. in complete contrast to the decision on February 4, 2015, the
Review Department opined the “compelling reasons” negating summary
disbarment, were instead, the result of a “difficult relationship” and she was
summarily disbarred. (App. “I”, p.4,1)2.)
On June 18. 2015. in a Report by the California State Auditor, it was
disclosed that the State Bar had been under investigation since 2012, for failing to
discipline attorneys appropriately, after it was discovered they settled 1,500,
discipline cases, “inadequately”, in order to reduce their back-log of 5,000, cases.
(App. “L”.) When the report was disclosed, there was scathing public response due
8 First, the State Bar Court was well aware MS. KAMMERER suffered from a mental illness, causing dissociation;
preventing her from forming criminal intent, let alone, specific intent. (App. “F”, pp. 13-16.) Second, to avoid the
“Draconian” application of summary disbarment, the State Bar’s Rules of Procedure, Standards for Attorney
Sanctions for Professional Misconduct, allows for leeway: ‘7n the Matter ofBouyer (Review Dept. 1991) 1 Cal.
State Bar Ct. Rptr. 404,419, even though the standards are not to be applied in a talismanicfashion, they are to be
followed unless a conwelline reason justifies not doing so” “Ultimately. in determining the appropriate w/ nf
discipline, each case must be decided on Us own facts after a balanced consideration of all relevant factors.”
{Connor v. State Bar (1990) 50 Cal.3d 1047, 1059; emphasis added). The tragic facts in MS. KAMMERER’S case
ARE compelling; yet, a “balanced consideration” of her debilitating mental illness and the criminal element which
caused it, was NEVER addressed.

16

to the appearance of a lack of public protection. (App. “L”.) MS. KAMMERER’S
case happened to be before the State Bar during this time and was added to the list
of “disbarments”, disclosed to the public, after the Report came out.
On September 30. 2020. MS. KAMMERER filed a Petition for Writ of
Mandate, with the Supreme Court of California. (App. “A”.)
On December 30. 2020. MS. KAMMERER’S Petition was denied29. (App. “B”.)
This Petition follows.
THE COURTS DISCRETIONARY POWERS ARE NECESSARY
Due to the exceptional circumstances in the case at bar, including the
negative consequences on other professionals suffering from a mental illness, this
Court’s discretionary powers are necessary to ensure mental illness is not punished
but treated appropriately.

RELIEF CANNOT BE OBAINED IN ANY OTHER FORM,
FROM ANY OTHER COURT
Further, because of the structure of the State Bar of California and their
authorization to recommend discipline to the California Supreme Court, no other
court may grant the relief that MS. KAMMERER seeks.
REASONS FOR GRANTING THE PETITION
For centuries, individuals with disabilities have fought to have equal access
and receive equal treatment in society. The ability to earn a living is one such area

29 On May 19.2021. MS. KAMMERER mailed her Petition for an Extraordinary Writ, (within 150 days of
California Supreme Court’s decision, as allowed under this Honorable Court’s COV1D rules); On May 28,2021,
this Court returned MS. KAMMERER’S Petition, with a request for corrections. On July 27,2021, MS.
KAMMERER mailed the “corrected” Petition; which, this Court received on August 4,2021, and returned on
August 5,2021, specifying additional corrections. MS. KAMMERER now files this second, corrected Petition, in
compliance with Rule 29.2.
17

where individuals with disabilities find of utmost importance. Under the
Americans With Disabilities Act, (ADA), individuals with physical or mental
conditions, receive certain protections to ensure they are not discriminated against.
MS. KAMMERER did NOT contribute to the mental illness she suffered after
7-years of domestic violence and the laws in place to protect her, failed miserably.
In fact, she tried desperately to be left alone, so she could earn a living and care for
her children. However, due to the failure of prosecutors to bring criminal charges
against her Abuser, for 7-years, the resulting mental illness she developed, not only
prevented her from earning a living, it caused illogical thinking. This combination
ultimately resulted in actions, wherein, MS. KAMMERER did things completely out
of character in order to provide food and shelter for her children.
Despite knowing MS. KAMMERER was operating under a debilitating
mental illness, the State Bar violated the protections of the ADA, when they denied
her participation in a program designed for professionals who suffer mental illness
and are facing discipline; specifically, the Alternative Discipline Program, [ADP].
The ADP prevents discrimination against, or the punishment of, an individual with
a mental illness, by allowing them to keep their license while they rehabilitate.
However, in contrast to other attorneys who presented with mental illness or
addiction issues, that resulted in State Bar discipline and allegations of moral
turpitude, who WERE included in ADP, MS. KAMMERER was disbarred.
If the protections under the ADA are to be given any meaning, MS.
KAMMERER’S Petition must be granted. Further, to condone summary

18

disbarment under the circumstances of this case, would be to condone the
unconstitutional punishment of an individual for having a mental illness.30
The questions presented by this case are extraordinarily important, and
there is no possibility of further percolation. Whether there is a constitutional right
of access to significant legal protections for professionals with qualifying disabilities
under the ADA, such as equal participation in programs such as ADP, could
determine the fate of all professionals; specifically, females who are statistically
more likely to be victims of domestic violence and suffer sexual discrimination, in
addition to mental illness31.
I.
DOES IT VIOLATE THE AMERICANS WITH DISABILITIES ACT, TO PUNISH
AN INDIVIDUAL FOR BEING MENTALLY ILL, BY SUMMARILY REVOKING
THEIR PROFESSIONAL LICENSE AND DENY THEM THE ABILITY TO
PARTICIPATE IN A PROGRAM SPECIFICALLY DESIGNED FOR
PROFESSIONALS WHO ARE FACING DICIPLINE DUE TO A MENTAL
ILLNESS; WHICH, WOULD HAVE ALLOWED THEM TO MAINTAIN THEIR
LICENSE WHILE THEY REHABILITATE, WHEN THE LICENSING AGENCY
KNEW THE MENTAL ILLNESS CUASED THE ACTIONS WARRANTING
DISCIPLINE?
An individual falls within the American’s With Disabilities, (“ADA”),
“protected class”, if they are a qualified individual with a disability; which, the
statute defines as an individual, "... who, with or without reasonable modifications

30 The California Superior Court and State Bar have since adopted evolving standards against punishing people with
a mental illness or addiction. fApp. “D”. p.l, ^2].)
31 On April 5.2021. the State Bar ITSELF, acknowledged MS. KAMMERER’s mental illness; (which, qualified her
for LAP in 2014, fApp. “Y”]; a prerequisite for ADP), and declared she had successfully rehabilitated. (App. “P”)

19

to rules, policies, or practices, .. . meets the essential eligibility requirements for
the receipt of services or the participation in programs, (ADP), or activities provided
by a public entity” (42 U.S.C. § 12131[2] [2000]; emphasis added.) The statute
defines disability as “a physical or mental impairment that substantially limits one
or more of the major life activities” of the individual in question, “a record of such an
impairment,” or “being regarded as having such an impairment”. (Id. § 12102[2].)
Title II of the ADA prohibits discrimination by public entities, (here the California
State Bar), against qualified individuals, (here, MS. KAMMERER), with
disabilities, (42 U.S.C. § 12132 [2000]), and courts agree that it applies to lawyer
disciplinary proceedings32.
In fact, some lawyer discipline hearings do not engage in an analysis of the
ADA. Proof of a disability is sufficient: See, e.g., In re Hasenbank, 151 P.3d 1, 6
(Kan. 2007) (lacking reference to ADA where attorney claimed depression and
bipolar disorder caused his misconduct); In re Conduct of Coyner, 149 P.3d 1118,
1123 (Or. 2006) (lacking reference to ADA where attorney claimed mental disability
and alcoholism caused his misconduct); In re Stoller, 902 So. 2d 981, 984 (La. 2005)
(lacking reference to ADA where attorney claimed Parkinson’s Disease and
depression contributed to his misconduct).
A. The California State Bar Found MS. KAMMERER Had a
Qualifying Disability: Yet. Denied Her Participation In ADP.
Despite Having The Disability As The Direct Result Of

32 See, e.g., State ex rel. Oklahoma Bar Ass’nv. Busch, 919P.2d 1114,1118 (Okla. 1996) (noting that Title II of the
ADA applies to public entities and holding that the ADA applies to the Oklahoma Bar Association, “an arm of this
Court”); Florida Bar v. Clement, 662 So. 2d 690,700 (Fla. 1995) (stating that the ADA applies to the Bar).

20

Domestic Violence And The System’s Failure To Protect Her
And Her Children, From The Abuser.
In the case at bar, there is no question MS. KAMMERER was suffering from

i

clinical depression and PTSD; which, significantly limited her ability to earn a
living and prevented her from thinking clearly. Nor was MS. KAMMMERER
suffering in silence. San Diego prosecutors acknowledging, repeatedly, MS.
KAMMERER was a victim of domestic violence, (a serious crime); yet, refused to
bring charges against her abuser for 7 years.
When an individual is threatened, the brain will move to the “Alarm”
state. “When this happens, we start to think in more emotional
ways as lower systems in the brain begin to dominate our
functioning...we often say or do things that we regret. (Bruce D.
Perry, M.D., Ph.D. and Oprah Winfrey, What Happened To You?
Conversations on Trauma. Resilience, and Healing. Part 3, Chapter 2,
23:27-23:55, audiobook.)
“The pervasive misunderstandins of trauma-related behavior has
a profound effect on our...iustice system.” (Id. at 37:40 - 37:48.)
In fact, on July 15, 2021, during MS. KAMMERER’s hearing on her Motion
for expungement of her criminal record and a reduction of her felony to a
misdemeanor, the Judge's determining factor in granting MS. KAMMERER’S
request, was driven by the fact the prosecutor admitted they NEVER brought any
charges against MS. KAMMERER’S abuser.
B. The American Bar Association. Persuasive Authority For
California, Lists Four Factors To Determine If An Attorney’s
Mental Illness Should Be Considered In Mitigation: None Of
Which, Were Evaluated In MS. KAMMERER’S Case: Where.
The Failure To Do So, Violated The ADA.

21

'I

{.

According to the Standards33, mental disability or chemical dependency may
be a mitigating circumstance, provided that four factors are met: (1) there is
medical evidence that the respondent is affected by a chemical dependency or
mental disability; (2) the chemical dependency or mental disability caused the
misconduct; (3) the respondent’s recovery from the chemical dependency or mental
disability is demonstrated by a meaningful and sustained period of successful
rehabilitation; and (4) the recovery arrested the misconduct and recurrence of that
misconduct is unlikely. Not only did the LAP Committee establish factors (1) and
/

j >

i

(2), in “qualifying’’ MS. KAMMERER for thei“monitored” LAP program; but, in
•7'

order to successfully graduate from LAP,, factors (3) and (4), must be present.
;r

Regardless, MS. KAMMERER was denied the ability to participate in the
State Bar’s Alternative Discipline Program, (ADP); which, would have allowed her
?" •

s

»

to keep her license, while she rehabilitated from the mental illness, directly
violating 29 U.S.C. §794. Section 504, of the ADA34.
C. The Causal Factor Of MS. KAMMERER’S Mental Illness,
Was No Longer In Existence After Abuser Hanged Himself:
Wherein. The Mental Illness That Caused The Actions
Warranting Discipline. Could Now Be Rehabilitated
Through ADP And MS. KAMMERER Could Return To The
Practice Of Law Without Any Threat To The Public.
:

33 STANDARDS FOR IMPOSING LAWYER SANCTIONS § 9.32 (1992) [hereinafter ABA STANDARDS].
34 29 U.S.C. §794. Section 504 in relevant part prohibits discrimination against
individuals with disabilities in any program or activity that receives federal financial
assistance and was the model for the ADA language; where, nondiscrimination provisions
are not limited to entities that receive federal assistance.

22

{

Enacted in 1990 and amended in 2008 by P.L. 110-325, the ADA is a civil
r

i

rights statute that has as its purpose "to provide a clear and comprehensive
national mandate for the elimination of discrimination against individuals with
disabilities .” (42 U.S.C. §12102[b][l].) The State Bar knew MS. KAMMERER was
genuinely suffering from PTSD and clinical-depression; which, is why they
“qualified” her to participate in LAP, twice.
However, when an actual discipline issue presented itself, they denied her
participation in ADP, claiming she had “...the specific intent to deceive”, (App. “G”,
p.3,11); which, was simply not possible under her diagnosed mental illness. In
Florida Bar v. Clement, the attorney claimed that sanctioning him for
misappropriating the funds of two clients would violate the ADA, due to his bipolar
disorder. (662 So. 2d 690, 692 [Fla. 1995].) The court disagreed, finding, “Although
Clement was under psychiatric care for his bipolar disorder when the incidents in
this case occurred, Clement also said he could fool his doctor into believing that he
was in control during some of the period in question. This suggests that nothing
could prevent repetition of the egregious misconduct in this case.” {Id. at 700.)
In contrast, MS. KAMMERER’s fear and resulting mental illness, was
evaluated and confirmed by the State Bar’s LAP Committee; consisting of mental
health experts. MS. KAMMERER was not trying to fool anyone. She was
genuinely traumatized; which, any reasonable person would have been under the
same circumstances. With her Abuser no longer alive and a regular stream of

23

income from survivor benefits, there is no possibility of recurrence of the
uncharacteristic actions she took to provide for her children, during a horrific time
D. MS. KAMMERER’s Therapist Declared The Actions
Resulting In Discipline. Were The Direct Result Of MS.
KAMMERER’S Mental Illness: Which, Was The Direct and
Proximate Result Of Prosecutors Allowing Her Abuser to
Traumatize Her And Her Children.. For 7-Years: The State
Bar Agreed. Qualifying Her For The “Monitored” LAP.
In re Hasenbank, 151 P.3d 1, 6 (Kan. 2007); In re Disciplinary Proceedings
Against Jacobson, 690 N.W.2d 264, 275 (Wis. 2004); In re Disciplinary Action
Against Weyhrich, 339 N.W.2d 274, 279 (Minn. 1983); see also STATE BAR OF
CAL., STANDARDS FOR ATTORNEY SANCTIONS FOR PROFL MISCONDUCT,
Standard 1.2(e)(iv) (2007), mitigation was found where there was evidence of,

..

extreme emotional difficulties or physical disabilities suffered by the member at the
time of the act of professional misconduct which expert testimony establishes was
directly responsible for the misconduct, provided that such difficulties or disabilities
were not the product of any illegal conduct by the member...”. In MS.
KAMMERER’S case, there WAS “illegal conduct”; that of her Abuser, which was
allowed to continue for 7-years, creating her desperate financial situation &
debilitating mental illness.
In fact, Dr. Lazar, who was MS. KAMMERER’S treating therapist for a
number of years, opined:
'The impact of the type of stress MS. KAMMERER experienced
can be devastating, both emotionally and cognitively. This can
compromise a person’s ability to function in their normal capacity
emotionally, socially, vocationally and even cognitively. Sadly enough
her depression and PTSD created enough confusion and
24

desperation that she took actions that were out of character
for her and unprecedented.” (App. “S”, p.2)
“...These changes have made the ‘perfect storm9she
experienced, and which compromised her thinking and
judgment, an aberration that is nearly impossible to
reoccur. ”35 (App. “S”. p.3.)
With this knowledge, combined with the State Bar's own therapists on the
LAP Committee, who were in concurrence with Dr. Lazar’s professional opinion, the
“modification” to MS. KAMMERER’S license, under the ADA, (protecting the public,
while allowing MS. KAMMERER time to rehabilitate from her mental illness, [the
causal factor of her actions]), would have been to allow participation in ADP.
In State ex rel. Oklahoma Bar Association v. Busch, court stated it saw “no
‘reasonable accommodation’ which can be made with regard to [respondent's
neglect of client matters and deceit in court which would accomplish the purpose of
maintaining the integrity of the [b]ar and promoting the public’s confidence in the
state’s many attorneys.” (919 P.2d 1114, 1119 [Okla. 1996].) In the case at bar, MS.
KAMMERER did not neglect client matters. In fact, as discussed above, the Judge
opined during the preliminary hearing that she was “providing top notch service” to
her clients. (App. “K”.) Denying MS. KAMMERER the ability to participate in ADP
and maintain her law license while she rehabilitated, when her situation more than

35 The analysis in Clement finds if successful treatment or a restructuring of one’s practice has rendered an attorney
unlikely to repeat her misconduct in the future, the attorney is a “qualified individual with a disability” who falls
within the ADA’s protection. (Id. at 700.)

25

qualified her for said accommodation, was a clear violation of the ADA; and her
summary disbarment was, in effect, punishment for having a mental illness.36

It
IS DISPARATE PUNISHMENT FOR ETHICAL VIOLATIONS, WHERE
GENDER AND MENTALL ILLNESS ARE INVOLVED, A FORM OF
DISCRIMINATION THAT VIOLATES ONE'S RIGHT TO EQUAL
PROTECTION UNDER THE AMERICANS WITH DISABILITIES ACT?

"A gender line ... helps to keep women not on a pedestal, but in a cage."37
-Ruth Bader Ginsburg

A. The Summary Disbarment Of Female Attorneys. With A
Diagnosed Mental Illness. Directly Resulting From Years of
Unrelenting Domestic Violence and The Failure Of Our System To
Stop Their Abusers* Is Sexual Discrimination. Disnaratelv
Impacting Women Professionals. Through Inequality In
Discipline.
Title VII of the Civil Rights Act of 1964 made it unlawful for an employer to
limit, segregate, or classify his employees in any way that would deprive or tend to
deprive any individual of employment opportunities or otherwise adversely affect
his status as an employee, because of "a particular characteristic or characteristics
like race or sex" (Grossman, 2010). In 1971, in Griggs v. Duke Power Co., the
Supreme Court ruled, employers could not rely on hiring criteria that imposed a

36

A "status crime" is a crime based on a person's character or condition, rather than on actually committing a
wrongful act. [Robinson v. California, 370 U.S. 660 [1962].)

37 In 1975, in Weinberger v. Wiesenfeld, 420 U.S. 636 (1975), the late Ruth Bader Ginsburg paraphrased the words
of the first woman to serve as a district court judge in arguing why unequal treatment of the sexes was wrong.

26

demonstrable negative impact on a protected class of workers and yet were not
justified by business necessity. (401 U.S. 424.)
The Court concluded that targeting discriminatory consequences — not just
discriminatory motives — was part of Congress’ purpose in enacting Title VII.
In 1991, in response to several Supreme Court decisions narrowing the scope
of liability in cases involving disparate impact or unintentional discrimination,
Congress amended Title VII to restore the initially broader scope by adding a
provision that expressly prohibits disparate impact.
(i), Disparate Treatment and Disparate Impact
The traditional disparate treatment/disparate impact analyses apply when
one who is entitled to equal treatment, claims that he experienced unequal
treatment or uneven consequence (Tyler vs. City of Manhattan, 118 F3d 1400,
[10th Cir. 1997]). Disparate treatment and disparate impact claims originated
with Title VII of the Civil Rights Act of 1964. Disparate treatment and disparate
impact claims are allowed under the ADA because Congress adopted the language
of previous civil rights statutes in the drafting of the ADA. (Disabling
Interpretations: The Americans With Disabilities Act In Federal Court, by Suzan
Gluck Mezey, 2005).

(ii). Elements Of Disparate Impact.
Disparate impact exists where an employer uses legitimate employment
policies and procedures that, despite apparent neutrality, discriminate against a
27

protected class or group of employees. A Title VII disparate impact claim includes
four elements: (a) plaintiff must identify specific practice or policy that caused
disparate impact, (summary disbarment); (b) plaintiff must show that employer
used the employment practice or policy, (Ms. Kammerer was summarily disbarred);
(c) plaintiff must prove that he/she as a member of a protected class, (MS.
KAMMERER had a diagnosed mental illness and was a victim of domestic
violence), experienced an adverse or disproportionate impact, (ongoing domestic
violence resulted in her mental illness, lack of clarity in thinking and ultimately,
actions leading to discipline), caused by employment practice, (summary
disbarment), or policy (usually through the use of statistics....women are
statistically more likely to be the victims of domestic violence); and (d) to rebut a
charge of disparate impact, the defendant (employer) must demonstrate that the
employment practice or policy in dispute is both job-related and consistent with
business necessity, (since the State Bar has a program designed to protect the
public, while lawyer’s rehabilitate under the watchful eye of the State Bar,
summary disbarment was NOT necessary in the case at bar).
Plaintiff may then offer a surrebuttal, by showing an alternative, less
discriminatory practice or policy was available, (ADP, LAP, license suspension), and
the employer refused to use it, (MS. KAMMERER was denied ADP, despite having
the necessary qualifications). For Title VII disparate impact cases under the ADA,
plaintiff need only show unintentional discrimination affected her, not an entire
group. Here, the State Bar’s subjective determination, resulted in disbarment.

28

B. Statistics Show Disparate Treatment Of Female Attorneys.
Compared To Their Male Counterparts. When It Comes To
Discipline: Obviates The Need For A More Critical Evaluation Of
Disbarment. Where Domestic Violence Is Involved.
A sociologist from the University of Pennsylvania, references research done
by the American Bar Association, (“ABA”), in addressing disparate treatment of
female attorneys, compared to their male counterparts, when it comes to discipline,
due to societal expectations that women are more ethical and thus, held to a higher
standard, in an interview:
“SHAPIRO38: This seems to support the idea that people assume women are
more ethical and unethical behavior might be more likely practiced by men.
“VEDANTAM: That's right... So if vou think of women as being more
ethical and vou come across a woman who does something unethical.
do vou perceive this to be a more serious problem than a man who
does the very same thins?

“VEDANTAM: ...The researchers went back to McDonnell's39 interest in the
law. They tracked down disciplinary punishments handed out by the
American Bar Association, Ari. They analyzed 500 cases in 33 states
where a lawyer was pulled up before the Bar Association.
"... The researchers then analyzed the punishments handed down to
lawyers who had committed identical infractions...
“MCDONNELL: Women had a 35 percent chance of being disbarred in any
given case, and men had a 17 percent chance. So that suggests that females
had a 106 percent higher likelihood ofbeins disbarred than males.
“SHAPIRO: Shankar, this sounds really disheartening - that women are
going to be punished more severely for the same offenses as men *
(National Public Radio, [“NPR”] KPBS, Women Held To Higher Ethical
38 Arti Shapiro is a host on National Public Radio, (“NPR”).
39 Mary-Hunter McDonnell is a sociologist at the University of Pennsylvania.

29

Standard Than Men, Study Shows, June 2, 20164:28 PM ET, Heard on All
Things Considered, bv Shankar Vedantam.Y
Numerous studies have addressed disparate application of discipline toward
women:
“Our research documents a new prescriptive stereotype faced by women and
helps to explain the persistence of gender disparities in organizations. It
highlights punishment severity as a novel mechanism bv which
institutions may derail women’s careers more than men’s.” (Kennedy,
J., McDonnell, M., & Stephens, N. (2016). Does Gender Raise the Ethical Bar?
Exploring the Punishment of Ethical Violations at Work. Academy of
Management Proceedings,
http://dx.doi.org/10.5465/AMBPP.2016.11664abstract; Emphasis added.)

“In this research, we investigate another form of discrimination against
women professionals: how gender bias shapes the allocation of employmentrelated punishment. Specifically, we ask whether women suffer more severe
punishment than men for ethical violations at work. Harsher punishment
could be one important but subtle wav of subduing women who have
achieved inroads into prestigious professions... Harsher punishment
for ethical violations may be one important example of covert discrimination.”
(Id. at p.3.)
Traditionally, women and men face different social expectations, where
women are expected to be more caring and ethical. These stereotypes have a
prescriptive quality (Burgess & Borgida, 1999; Eagly & Karau, 2002; Heilman,
2001). That is, women are expected to behave in wavs consistent with these
.

•

-

v

j

\

stereotypes and face negative consequences when their behavior deviates
from them.” (Id. at p.6, emphasis added.).
Gender discrimination is more visible in the context of discipline, due to the
difficulty in ascertaining the level of discipline appropriate in a particular situation,

30

facilitating oversight with regard to inconsistencies and unequal treatment. “What
constitutes an ethical violation is often ambiguous (Wiltermuth & Flynn, 2013)...
[b]ecause there is little consensus regarding ethical standards or how violations
should be punished, the context is ripe for sender discrimination, which tends to
emerse when decision-makers are afforded substantial discretion under a suise of
objectivity (Castilla, 2008; Castilla & Benard, 2010; Uhlmann & Cohen, 2005).
Under these circumstances, gender may subconsciously influence evaluators’
perceptions, leading to discrepant outcomes that tend to systematically
disfavor women. (Gorman, 2005; Reskin, 2000).” (Id. at pp. 7-8, emphasis added.)
Because ethical behavior is more strongly prescribed for women than men,
women are punished more severely than men following an ethical
violation at work. “Severity is subjective, however. To the extent women are held
to higher ethical standards than men, observers may perceive women’s ethical
violations to be more severe than men’s because the higher standard women are
held to...” (Id.) The researchers concluded, “...the gender of the individual who
commits the ethical violation, rather than other factors, is the causal factor that
drives differential punishment severity.” (Id. at p.10.). More specifically:
“...women are more likely to be disbarred than men,
controlling for the precise ethical violation committed. Post­
estimation margins analysis of Model 4 with all control variables held
to their means indicates that females have a 106% higher
likelihood of being disbarred than males (at .35 and .17,
respectively).” (Id. at p.21, emphasis added.)

31

“Punishment severity may be one mechanism by which women lose
professional status more easily than men after achieving it.” {Id. at p.22.) The ,
summary disbarment of MS. KAMMERER is aprime example of unconstitutional
disparate impact in severity of punishment of women professionals.
.

III.

WOULD REQUIRING A PROFESSIONAL TO RE-TAKE A LICENSING EXAM
TO HAVE THEIR LICENSE REINSTATED, WHEN THEIR LICENSE WAS
IMPROPERLY TAKEN DUE TO ACTIONS CAUSED BY A DISABILITY,
WHERE THE PROFESSIONAL WAS FOUND TO HAVE COMPETENTLY
PERFORMED THEIR PROFESSIONAL TASKS AT ALLTIMES AND HAS
SINCE REHABILITATED FROM THE MENTAL ILLNESS, VIOLATE THE
AMERICANS WITH DISABILITIES ACT?

In the years since the Supreme Court’s decision in Olmstead v. L.C., 527 U.S.
581 (1999), the goal of the integration mandate in title II of the Americans with
Disabilities Act - to provide individuals with disabilities opportunities to-live their
lives like individuals without disabilities - has yet to be fully realized. To comply

/

with the ADA’s integration mandate, public entities, (California State Bar), must
reasonably modify their policies, procedures, (attorneys who are disbarred, must
take and pass the Attorney Bar Exam), or practices when necessary to avoid
discrimination40. The obligation to make reasonable modifications may be excused
only where the public entity demonstrates the requested modifications would
“fundamentally alter” its service system.

40 28 CJ\R.§35.l30(bX7).

32

y
f

Since MS. KAMMERER was granted successful graduation from LAP, has
maintained required MCLEs and was found to have provided “top notch” legal
services, having never been faced with allegations of malpractice, reinstating MS.
KAMMERER’S law license, without having to retake the Bar Exam, would in no
way, alter the State Bar’s “service system”.
CONCLUSION
Accordingly, and for all the above reasons, this Honorable Court must grant
MS. KAMMERER’S Writ of Certiorari, to review the lower court’s decision.

DATED:

Quetzal2^2021

Respectfully submitted,

L" KAMMERER,
Petitioner, Pro se
2907 Shelter Island Dr, #105-523
San Diego, California 92106
(619) 990-7019
JLKHome2@gmail.com

33

VERIFICATION

I am the petitioner in this action. All facts alleged in the above petition are
true of my own personal knowledge. I declare under penalty of perjury under the
laws of the State of California that the foregoing is true and correct.

Date:

Signed^
L. Kammerer

34

CERTIFICATE OF WORD COUNT

I hereby certify that the accompanying Petition for Writ of Certiorari in In
re Jennifer L. Kammerer, complies with the word count limitations of Supreme
Court Rule 33(g) in that it contains 9,000, words, based on the word-count function
of Microsoft Word, including footnotes and
excluding material not required to be counted by Rule 33(d).

Date: //)-?

35

